                                  CLOSEOUT FOR M93020006




- -   -   -   -   . - -   .   -
                                                                                contained text
and figures plagiarized from another scientist's funded NSF proposal.

       OIG's investigation report and NSF's Deputy Director's July 3 1, 1996; letter reflecting
her decision constitute the closeout for this case.



cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                       Page lof 1
                     NATIONAL SCIENCE FOUNDATION
                         4201 WILSON BOULEVARD
                        ARLINGTON, VIRGINIA 22230


                                     September 1 3 , 1996

   OFFICE OF THE
  OEPUM DIRECTOR



CERTIFIED MAIL-RETURN RECEIPT REOUESTED




Re:   Debarment


 On July 31, 1996, the National Science Foundation (NSF) sent you
 a Notice of Proposed Debarment in which NSF proposed to debar you
'from directly or indirectly obtaining the benefits of Federal
 research grants for a period of two years. NSF1s debarment
 action is based on your severe misconduct in science discussed in
 detail in the Notice of Proposed Debarment. In that Notice,
 which was delivered to you on or before August 6, 1996, NSF
 informed you that you had a period of 30 days to respond to the
 proposed debarment.
                                                              .,
NSF did not receive any response to the Notice of Proposed
Debarment on or before September 5, 1996. Accordingly, you are
debarred until July 31, 1998. Debarment is effective throughout
the Executive branch of the Federal Government. Debarment
precludes you from receiving Federal financial and non-financial
assistance and benefits under nonprocurement Federal programs and
activities unless an agency head or an authorized designee makes
a determination to grant an exception in accordance with 45 CFR
620.215. Nonprocurement transactions include grants, cooperative
agreements, scholarships, fellowships, contracts of assistance,
loans, loan guarantees, subsidies, insurance, payments for
specified use, and donation agreements. In addition, you are
prohibited from receiving any Federal contracts or approved
subcontracts under the Federal Acquisition Regulations (FAR) at
48 CFR Subpart 9.4 for the period of this debarment. 45 CFR
Section 620.110(c).
Under NSF1s regulations, you have 30 days to submit an appeal of
this decision, in writing, to the Director of the Foundation. 45
CFR 689.8(c)(1)(iii). Any appeal should be addressed to the
Director, National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia, 22230. (A copy of the applicable
regulations was enclosed with the previous Notice of Proposed
Debarment. )
If you have any questions regarding the foregoing, please feel
free to contact Lawrence Rudolph, General Counsel, at (703) 306-
1060.


                             Sincerely,



                            ~ n n &C. Petersen
                            Deputy Director
                     NATIONAL SCIENCE FOUNDATION
                         4201 WILSON BOULEVARD
                        ARLINGTON, VIRGINIA 22230



      flSf                           July 31, 1996

  OFFICE OF THE
 DEPUPl DIRECTOR

PERSONAL AND CONFIDENTIAL
CERTIFIED MAIL-RETURN RECEIPT REQUESTED




Re:   Notice of Misconduct in Science Determination and Proposed
      Debarment


This letter and the attached investigative report serve as formal   ,

notice that the National Science Foundation (NSF) proposes to
debar you from directly or indirectly obtaining the benefits of
Federal research grants for a period of two years. A person who
is debarred will be excluded during the period of debarment from
Federal financial and non-financial assistance and benefits under
non-procurement Federal programs and activities. See 45 CFR
S620.110, 5620.200. In addition, you also will be prohibited
from receiving any Federal contracts or approved subcontracts
under the Federal Acquisition Regulations (FAR) at 48 CFR Subpart
9.4 for the period of this debarment. 45 CFR §620.110(c).
Debarment of an individual is effective throughout the executive
branch of the Federal Government,.
Reasons for Debarment
NSF's decision to propose debarment is based upon a referral from
our Office of Inspector General (OIG). The Foundation's
administrative record indicates that you committed extensive
plagiarism in a proposal you submitted to NSF entitled
                                                   (the
"Pro~osal~~). As documented in the attached Investiqative Report,
                                               copied, withoit
                                             a proposal submitted
                                              entitled
                                              ich you rece5ved

By submitting a proposal to NSF that extensively copies the work
of others without attribution, you misrepresented as your own
substantial portions of the summary of proposed work and the
proposed development plan. This plagiarism undermines the
                                                         -
integrity of your Proposal, since originality is a critical
factor in zvaluating a grant proposal.
In defense of your actions, you claim that a former student
prepared the plagiarized portions of the proposal and that you
were unaware of the plagiarism. As described in the
Investigative Report, these claims are not supported by the
facts. The administrative record shows that the student no
longer worked for you during the 1992 fall semester when you
prepared the proposal.
Moreover, you acknowledge that you retained a copy of Dr.
proposal'which you received as an NSF peer re      . You also
admit that you provided the student with Dr.        proposal to
       him in preparing your,proposal. When you received Dr.
       proposal, the proposal evaluation form advised you of the
             nature of the peer review process and prohbited you
from copying, quoting, or otherwise using the material from the
proposal. In addition, during the panel meeting, NSF verbally
instructed you not to retain the propos.al. Your retention of the
proposal and subsequent use of the materials in preparing your
own proposal violated the confidentiality of the peer review
process.
Under NSF's regulations, nmisconductu is defined to include
"falsification, fabrication, plagiarism, or other serious
deviation from accepted practices in proposing, carrying out or
reporting results from activities funded by NSF." 45 CFR
§689.1(a). We find that your actions constitute plagiarism and a
serious deviation from accepted practices within the scientific
community. Accordingly, we conclude that you committed
misconduct in science.
Resulatorv Basis for Debarment
In deciding what response is appropriate when misconduct is
found, NSF must consider the seriousness of the misconduct;
whether it was deliberate or careless; whether it was an isolated
event or part of a pattern; and whether the misconduct affects
only certain funding requests or has implications for any
application for funding involving the subject of the misconduct
finding. 45 CFR §689.2(b). Severe misconduct is a cause for
debarment because (i) it affects the integrity of NSF research or
education programs, see 45 CFR 5620.305(b); 45 CFR §689.1(e), and
 (ii) it is a "cause of so serious or compelling a nature that it
affects the present responsibility of a person", 45 CFR
S620.305 (dl .
Debarment must be for a period commensurate with the seriousness
of the cause. 35 CFR §620.320(a). It should generally not
exceed three years, but where circumstances warrant, a longer
period of debarment may be imposed. Thelburden of proof is on
the government to establish facts which justify debarment by a
preponderance of the evidence. 45 CFR §689.2(d), §620.314(c).
According to the Investigative Report, you committed plagiarism
in your proposal, including the portions describing the
development plan. This behavior was the result either of
recklessness or deliberate action, and constitutes severe
misconduct in science. In addition, you plagiarized from a
proposal which you received in confidence as an NSF peer
reviewer. However, the record indicates that the plagiarism was
an isolated event. Accordingly, we are proposing debarment as an
appropriate remedy, for a period of two years. In addition, we
are prohibiting you from serving as an NSF peer or mail reviewer,
advisor, or consultant for five years.
Procedures Governinq Proposed ~ebarmentyscientificMisconduct
Alleqations
Under our regulations, you have 30 days after.receipt of this
notice to submit - - in person, in writing, or.through a
representative - - information and argument in opposition to the
proposed debarment. 45 CFR §620.313(a). During this 30-day
period you may also review the attached Investigative Report and
submit comments or rebuttal. 45 CFR S689.8 (c)(11, S689.1 (el .
Comments submitted within the 30-day period will receive full
consideration and may lead to revision or withdrawal of the
Investigation Report or of the recommended disposition.
Any response should be addressed to Lawrence Rudolph, General
Counsel, National Science Foundation, 4201 Wilson Boulevard, Room
1265, Arlington, VA 22230. If you have any questions, please
contact Mr. Rudolph at (703) 306-1060. We are attaching a copy
of the Foundation's regulations on Non-Procurement Debarment and
Misconduct in Science and Engineering, and FAR Subpart 9.4.




                                   &u!hg2w
                                  Sincerely,


                                  An ' C. Petersen
                                  Deputy Director


Attachments ( 4 )
Investigative Report
Nonprocurement Debarment Regulations
Misconduct in Science Regulations
FAR Regulations
                                NATIONAL SCIENCE FOUNDATION
                          4201 WILSON BOULEVARD   ARLINGTON. VIRGINIA 22230




Interim Associate Director, Grants
  and Research
university Grants and Research Office




By letter dated                   1993, the sum of         was awarded t o
--                                            for support of the project entitled
-.   -             -                      , -            under the direction of

The purpose of this amendment is to confirm the cancellation of the
above-mentioned award in accordance with
letter dated December 15, 1995 and                 , e-mail dated May 29,
1996
Except as modified by this amendment, the grant conditions remain
unchanged.
The cognizant NSF program official for this grant is
(703) 306-1669. The cognizant NSF grants official is
(703) 306-1218,

                                                           Sincerely,
                                                           awarded 06/06/96
                                                           Grants Officer




--       duplicate copy
                   CONFIDENTIAL




    NSF OIG INVESTIGATION
                       REPORT


                 OIG Case Number M93020006




This document is lent to you FOR OFFICIAL USE ONLY. Tt remains the
property of the Office of Inspector General. It may not be reproduced. It may
be disclosed outside NSF only by the Inspector General, pursuant to the
Freedom of Wormation and Privacy Acts, 5 U.S.C. $$ 552,552a.
           REPORT OF INVESTIGATION INTO AN ALJXGATION OF
                                MISCONDUCT IN SCIENCE



        The Office of Inspector General (OIG) has concluded that
(the subject) of                                       (the University) extensively plagiarized
material from an NSP proposal he had received for confidential peer review into his own
subsequent submission to NSP. These conclusions are based on investigations performed by the
University and OIG. OIG recommends that NSP find that the subject committed misconduct in
science and take the following actions as a final disposition in this case. NSF should send the
subject a letter of reprimand from the NSF Deputy Director informing him that he was found
to have committed misconduct in science. NSF should debar the ,subject from miving
government gfants or awards for 3 years. He should be prohibited from padcipating as an NSF
peer or mail reviewer, advisor, or consultant for a period of 5 years from the final disposition
of this case. The funds awarded td the University on the basis of the subject's proposal should
be recovered from the University.

                                         BACKGROUND
                                            -   -
      --          -                      subject) is a tenured professor in the Department of
                                                    9,

                            -       -                               -         _$            ,
                    OIG received an allegation
conta&ed text and figures
                                           The PIS are employed by

                          proposal during his confidential peer review of that document.         I




        NSF funded the 1991proposal submitted by the PIs and the 1992 proposal submitted by
the subject, Both proposals had been submitted to NSF's Instrumentation and Labomtory
Improvement          program. Proposals submitted to this program are not basic research
proposals; they are requests for matching funds for the pupchase of equipment used in new or
restructured courses designed to improve science education or to serve as models for the

                                        -
           The proposal was entitled,                                                    " and named
           the subject as the sole PI. It was the basis for an           award that became effective
           on           1993, and will expire on                   1995. None of the funds awarded
           for this grant have been spent. Prior to initiating its inquiry the University informed us
           it had put a "freeze" on spending the grant funds.

           Theproposalwasentitled, '                                               " It was the basis
           for a       award that
instructional use of the pu~hasedequipment. The successful evaluation of a proposal depends
on the PI'S persuasive presentation of an educational development plan that includes an explicit
description of experiments utilizing the equipment as well as an explanation of how the
purchased equipment will improve science education at the institution.

                                        OIG's In-

Plagiarism

       We compared the subject's submission with the PIS' funded proposal to determine if text
and figures in the subject's proposal were similar or identical to those in the PIS' proposal. We
found seven sections of material and one figure that appeared to have been copied from the PIS'
proposal. Copies of the relevant portions of the PIS' and the subject's proposals are attached
as Tab A and B respectively. The sections in the PIS' proposal that appear to be copied are
sequentially numbered and a corresponding number has been placed next to the appropriate
section in the subject's proposal. The identical material in these sections is highlighted.
References to the Firm's software and those to Appendix VII (see below) are highlighted in pink
and green respectively.

       In the PIS' proposal3the seven sections contained 72 lines of text and two tables (section
6). In the PIS' and subjects' proposals these sections were found in the "Summary of Proposed
Work, " and in " Z k Development Plan" (specifically the course description, the detailed
description of five laboratory experiments, and two tables describing the "utilization" and
"usage" of the equipment). W o copied sentences were also found in the "Equipment Request. "
The PIS' proposal contains five student experiments, numbered 1-5. For each, the objective,
a description of the experiment, add the expected results were described. In addition to these
five experiments, the subject's proposal contains an additional experiment (#6), and describes
the objective, the experiment, and the expected results. We found that Figure 1in the subject's
proposal appeared substantially similar to Figure 1 and Figure 2 (located in Appendix VIZ) in
the PIS' proposal.

        In the subject's proposal, the material in the seven sections was not distinguishable from
other material in the proposal by offset. The text, tables and figures were not accompanied by
a citation to a source document. There were no-references or acknowledgements to the PIS in
                                                                                                     '
the subject's proposal. We were informed that the subject had not been given permission to use
this material.

       The PIS' proposal states that the experiments rely on the use of "an existing (TFirm] flow-
charting software             " that is not commercially available and only exists at the Firm.



       The subject's proposal presented the copied text describing the laboratory experiments
as a multi-page, three column table. Therefore, we used the PIS' presentation of the material
as a guide for the number of text lines that were copied.
    References to that software and its utilization are made in the PIS' proposal's descriptions of
    experiments 2, 3 and 4 (see Tab B, section 5, references to the software W pink highlighted).
    We found the same references to the Firm's software in the descriptions of the same five
    experiments in the subject's proposal.

           The PIS' proposal contains an Appendix VII entitled, "Figures." That Appendix contains
    two figures; one (Figure 2) is an alternative equipment layout to that shown in Figure 1, and the
    other (Figure 3) is a diagram of a computer communication network. The subject's proposal
    contains a single appendix page labeled "VII. Undergraduate Research." Below this title is the
    phrase "Not applicable;" the remainder of the page is blank. However, both the PIS' and the
I   subject's proposals contain references to Appendix VII in the descriptions of experiment 4 and
    5. The PIS' description of experiment 4 states:

           Students will first re-mute the computers to form the codiguration shown in
           Figux 2 (Appendix VII).

    and, experiment 5 states:

           Students will develop five levels of hierarchical control (see Figure 3, Appendix
           w.
    The subject's proposal contains the same text, but omits the latter figure number. It was not
    apparent to us why the subject's proposal would contain references to software that was
    unavailable to him and to figures that were not found in his proposal's Appendix VII.


    Violating the Intemitv of Confidential Peer Review,

          The subject served on a February 1992 NSF panel that reviewed the PIS' proposal, and
    his completed review is attached as Tab C. The back of the review form (NSF Form 1)
    completed by the subject contains NSF's statement of confidentiality and prohibition on the
    reviewer's use of the material outside of peer review.

    We learned that the subject had not been provided with a copy of the PIS' proposal by the PIS
    and that he did not have permission to copy the material from that proposal into his own. It
    appears that the subject used the PIS' proposal he had received from NSF for review in the
    preparation of his own in violation of NSF's confidentiality requirements.

            On the basis.of our initial findings we concluded that there was sufficient substance to
    the allegations to contact the subject for information.
The Subiect's Response and OIG's Analvsis

       The subject's response to our April 1993 letter requesting his views on the allegations
of plagiarism and violating the integrity of confidential peer review is attached at Tab D.

       The subject said that because the proposal preparation had "started late"       there was
a "rush to complete the proposal before the deadline," he had hired Mr.d                a student
assistant, to "help [him] with proposal development. "

       The subject said

       We have used the following p m s to develop the proposal. First we have
       outlined the scope of the proposal. Then I gave the student several reference
       materials and asked him to draw a cell layout first. After that we divided the
       proposal to several parts and asked the student to type one.part at the time and
       bring it to me for review and corrections. We were meeting every few days. I
       read and C                ~ parts of the proposal and then gave it back to [the]
                         O different
       student to type the corrections.

       I believe that one of the reference materials I gave to the student was [the PIS']
       proposal. Frankly at that time I did not think about the confidentiality issue, and
       it is a standard procedure to give students different reference materials (like
       books, repom, manuscripts etc.). It appears that [the] student copied some
       pmgmphs from [the PIS'] proposal. I should have been more careful and
       discovefledl that, but with a deadline for the proposal approaching very fast, I did
       not have time to do it properly. For that please give my deepest apologies to
       [one of the PIS]. I would like to ensure you that I never intended to use
       somebody else's work in the proposal.

        . . .I would rather withdraw my proposal and loose [sic] a chance for the award
       then [sic] have anybody doubt my intentions. In addition, I would like to ensure
       you that such [a] situation will never occur in the future.

         He explained that development and pumhase of equipment for the          cell" had begun
"over three years ago" and that the " k c i a l crisis in California" had severely impeded their
progress. The subject told us that the equipment layout found in his proposal Figure 1 was
"significantly different than [the PIS']." He did not provide any supporting documentation for
his statements.

        Because the subject idenM1ed the student as a material witness, we tried to gather
 information from the student. However, we were unsuccessful in our efforts to locate him at
 sevehl addresses within the United States. We learned that the student had left the United States
 for his home country. Despite our efforts we were unsuccessful in communicating with him
 during our inquiry.
        We were not persuaded that the iterative correction process described by the subject could
have resulted in a verbatim transcription of text from the PIS' proposal and could have resulted
in a proposal that retained references to unavailable software and nonexistent figures. In his
response, the subject had failed to explain why these refemnces appeared in his proposal. We
also thought that it was unlikely that an undergraduate student could have prepared substantial
parts of a proposal for model science, engineering or mathematics courses that would be of
sufficient merit to receive funding from NSF without extensive assistance from a faculty
member. We concluded that, while the subject had admitted that he had provided a confidential
document to the student, he had not adequately explained why he had taken the proposal home
with him after the NSF panel meeting in Washington, D.C. and how a verbatim transcription
of the body of this proposal came to appear in his proposal.

       We concluded that an investigation was warranted because there appeared to be sufficient
substance to the allegations and there remained a number of unanswered questions. Consistent
with NSP's position that awardee institutions beat primary responsibiity for preventing and
detecting misconduct we informed the University of the allegations and, at its request, we agreed
to delay our investigation until the University had completed its own, independent investigation.
We formally stated our deferral of our investigation in an August 1993 letter to the University.


                       THE UNIVERSITY'S INVESTIGATION
       During the course of the 180 day deferral period (45 C.P.R; $689.5 (a)) we contacted
the University to see if the individuals that were appointed to conduct the investigation had any
questions and if the investigation was proceeding at a reasonable pace. We learned that the
University had not begun work on this case and that officials had decided that they needed to
rewrite their misconduct regulations before they began the investigation. Finally, after several
conversations with our office, in late January 1994 the University informed the subject that an
inquiry official had been appointed, and we received an inquiry report one month later.

       The University's inquiry used "a determination on [whether] the validity of allegations
of misconduct against [the subject] '[wals within the ultimate province and purview of the
University Provost" as an assessment of whether there was substance to the allegations. The
inquiry official decided that the allegations of plagiarism and violation of the integrity of the
confidential peer review process "ha[d] substance" and recommended that an investigation be
conducted. The university appointed the inquiry official as the investigating official in February
1994.

       The inquiry official, as the investigating official, reviewed the University's file on the
matter, and interviewed the subject and the department chairperson. The student assistant was
found to be "a material witness to th[e] investigation" and private detectives were hired in an
"exhaustive" but unsuccessful attempt to locate him. The University forwarded its investigation
report (Tab E) to us in June 1994.
        The report separately addresses the alleged violation of the integrity of confidential peer
review and the alleged plagiarism. It divides the allegation of plagiarism into a discussion of
the layout found in Figure 1 of the subject's proposal and a discussion of the copied text and
tables in the seven sections we had previously identified.

Bmch of ConfidentkW in the Peer Review Process

        The investigating official noted that although the University's misconduct policy "d[id]
not specKically list breach of peer review confidentiality as misconduct . . . serious deviations
from accepted practices in research" were "proscribed." He noted that "the peer review process
is an integral aspect of the academic enterprise," that "confidentiality is at the heart of the peer
review," and that

       Various professional groups have deemed violations of peer review confidentiality
       to constitute unethical conduct.



       we] confirmed that peer review confidentiality is an established academic
       standard within the engineering disciline. The Chair of the Department of
       Mechanical & Industrial Engineering stated that peer review confidentiality was
       an established academic standard within the discipline and the Department.

      The subject told the off~cialthat he had received the PIS' proposal at an NSP panel
meeting in Washington, D.C.and that                                               \




        his best recollection was being 'probably' advised that proposals he was to review
        were confidential and should not be m%ned. He also stated that it was a
       'common pmctice' for participants in the NSF peer review process to retain such
       P~~P(J&.
       The subject mffimed to the investigating officer his statements in his May 1993 letter
to us. He said he had "shared a copy of [the PIS'] proposal with a student who assisted in the
preparation of the grant proposal." The subject said he had never told the student to copy from
the PIS' proposal; rather he had given it to him to aid his development of the general outline and
format of the subject's proposal.

        The investigating officer concluded that

        Even if [the subject's] assertion is accepted to be factually correct, the violation
        of the University Academic Misconduct Policy had already occurred when [the
        subject] retained a copy of [the PIS'] proposal contrary to direction from the NSF.
        The Limiting instructions that [the subject] gave to [the student assistant] did not
        mitigate the fact or extent of this violation. Wphasis added.]
Further, even if the subject's

       . . . assertion that retention of such proposals was commonplace among peer
       reviewers . . . and can be condoned as a standard practice, [the subject] violated
       standard peer review protocols when he subsequently provided [the student
       assistant] with a copy of the subject proposal.

       The investigating official concluded that the subject's violation of the confidential peer
review process was a "serious act of academic misconduct" and that confidential peer review was
an "established academic standard" in the subject's department. The official concluded that the
subject "did not personally profit" from this act-it was the "Department and its students" that
benefited from the NSF grant. He concluded the subject's action "was not deliberate, malicious
or intended to damage [one of the PIS'] reputation. Nor, however, was the.conduct merely
         . .
careless . ." The investigating officer mentioned the subject's teaching andbresearch
accomplishments as mitigating factors. He said there was "no evidence to suggest that [the
subject] could not have produced a proposal acceptable to NSF without resorting to and use of
[the PIS'] proposal [sic]." The officer concluded that the subject's action was an isolated
incident, that no other faculty were involved, and that he had "assumed a degree of
responsibility and demonstrated a measure of remorse for this instance of academic misconduct"
because he "ensure[d NSPJ . . . that such [a] situation will never occur in the future."


P h h r k m and Misa_Dmriation of Material from the PIS' Pro_oosal:

        The investigating officer considered misappropriation as part of his evaluation of the
plagiarism allegation because the University's misconduct policy

       defines misappropriation as 'the improper use of information or advantage gained
                                                                         .'
       by privileged access, such as service on peer review panels . . [and] plagkkm
       as taking inappropriate' [clredit for academic authorship . . . .
                                                ,
The Figures

       The investigating officer compared Figure 1 ,in the subject's proposal with Figures 1 and
2 in the PIS' probsal and similar figures found in commercial promotion literature. Figures
from one company's literature were reproduced in the investigation report (Tab E). The
investigating officer concluded that

        there was no evidence to establish that Figure 1 was copied or reproduced by [the
        subject] from Figures 1 and 2 in [the PIS'] proposal. . . . Significantly, it appears
        that [the subject's] Figure 1 is even more complex than [the PIS'] and pictorially
        describes [equipment] functions not found in [the PIS'] Figures 1 and 2.
    The Text

          The investigating officer noted that:

          substantial portions of the text from [the PIS'] proposal ha[d] been copied
          verbatim and reproduced in [the subject's] proposal without attribution . . . [and
          the subject] admitted that he did not have [the PI'S] permission to so utilize [the]
          proposal.
    The subject said that when he hired the student "late in 1992, [the student assistant] had
    graduated from the University but was still taking classes in the Business School." He
    considered the student to be

         - a superior student and me] believed that [the student assistant] had the-expertise
           and intellect to provide the necessary assistance. "

    The subject said he

           provided [the student assistant] with general verbal guidance on the proposal and
           provided him with various written materials including . . . [the PIS' proposal].
               .
           . . [The subject] said that his intent . . . was to provide [the student] with a
           'good example' of how such a proposal would be designed. . . . He never
           instructed [the student] to copy or simply merge any portion of [the PIS'] proposal
                           .
           into his own. . . [The student assistant] was to use the proposal in developing
           a general outline and format.

           Over a period of several days just before the proposal was prepared, [the subject]
           met with [the student assistant] on between five to ten occasions for a "few"
           minutes at a time. The purpose of these meetings was to review [the student
           assistant's] progress and review the drafts that [the student assistant] was
           preparing.

1   The subject told the investigator that

           he did not compare the contents of [the PIS'] proposal with his proposal after
           giving the [PIS'] proposal to [the student assistant] and there [wals no evidence
           to suggest that me] in fact knew that textual passages in the two proposals were
           the same. Rather it appears that only after it was pointed out to him did me]
           recognize this to be the case. m e subject] explained that the press of time
           prevented him from more carefully reviewing [the student assistant's] work
           product.
The investigating officer concluded that

       fi'[th.e subject's] version of the facts is accepted [emphas's added], it may be
       that [the student assistant] engaged in an act of plagiarism or misappropriation.
       The question presented, therefore, is whether the failufe to adequately supervise
       a student cmstitutes plagiarism or misappropriation. This Inv-e           OfEcer
       concludes that, under this -on       and based on the availableevidence,it cannot
       be established whether [the subject] engaged in plagiarism or -on              in
                                                                          ..
       connection with [the PIS'] pmposal [emphasis in the original) . m u s e ] it
       cannot be established that [the subject] was aware that his proposal, when
       submitted, contained material originally found in [the PIS'] proposal.

The report did not address the references in the subject's proposal to either,theFirm's software
or the nonexistent figures.

       Because the= was no explicit evidence to show that the subject had copied the material
found in his proposal and because the, student, considered a material witness, could not be
located, the official concluded that he could not "establish if [the subject] engaged in academic
misconduct  ...   when he filed a grant proposal with the NSP which contained textual material
excerpted h m [the PIS'] proposal." The investigating official concluded only that the subject
had "engaged in academic misconduct        . ..
                                              when he Ietahed a copy of [the PIS'] proposal and
supplied [the student assistant] with a copy of the same."

       He recommended that (1)the subject return or destroy all of the materials he had retained
from the peer review process, (2) he receive a written reprimand stating that "the University and
Department do not condone violations of peer review confidentiality," and (3) he should be
"encouraged but not required" to apologize in writing to the PI.

                               THR
                                 S'-                   ACTIONS

       In June 1994, the University's provost informed the subject that he was "accepting the
findings and recommendations included in the [investigation] report," and that the subject had
"ten days to appeal  w]    decision to [the University's] President." The subject did not appeal
and in a letter (Tab I?) sent 9 days later, the provost said

         . . . m t has been determined that you have violated the University Academic
        Misconduct Policy by retaining and providing another party with a copy of a
        colleague's . . . proposal. Further, we were not convinced that giving
        confidential documents to undergmduates was a "standard procedure."
         . . . M o u are being issued this letter of reprimand which will be placed in your
        Open Personnel file within the prescribed time frame. Further, you are hereby
        d.kcted to return or destroy all materials in your possession that are part of any
        peer review process requiring return or destruction of such materials. In
         addition, I am asking that you write a letter of apology to [the PIJ for the
         inappropriate handling of his [sic] materials.c41


   OIG'S REVIEW OF THE UNIVERSITY'S INVESTIGATION REPORT
        NSP's Misconduct in Science and Engineering ~gulationstates that "after receiving a
report from an external investigationby an awardee institution . . . OIG will assess the accuracy
and completeness of the report and whether the investigating entity followed usual and
reasonable procedures. It will either recommend adoption of the findings in whole or in part
    .
or . . initiate a new investigation" (45 C.P.R. 5689.8(a)).

        We found reasonable evidence within the University's investigation report to conclude
that Figure 1in the subject's proposal was not copied fmm the PIS' proposal. However, we also
concluded that the investigation report was incomplete. It did not provide sufficient information
for us to independently evaluate the allegations nor were we able to eliminate the concerns
resulting from our inquiry that were expressed in our defend letter to the University. We were
not persuaded by the mitigating circumstances Iisted by the institution official or by the subject's
promise that "such [a] situation will never occur in the future".

        The inconsistencies between the subject's description of the iterative process for writing
the proposal and the absence of editorial changes in the extensive amount of material that was
apparently plagiarized verbatim from the PIS' proposal were not pursued in the report. The
report failed to explain references in the subject's proposal both to the Firm's software that was
unavailable to him and to nonexistent figures.

       We concluded that the materials submitted by the University did not constitute a
thorough, complete investigation into the allegations. We concluded that additional investigation
by our office into these allegations of plagiarism of text and tables and violating the integrity of
confidentialpeer mview was required and informed the University that we would be conducting
an on-site investigation.

                                  OIG'S INVESTIGATION
        A two-member team from our office, consisting of a scientist and an investigator,
conducted the on-site investigation. We intexviewed the subject, another faculty member, the
                                                                             . . tors. In one
department chairperson, and the dean of the subject's school. We also collected relevant
h c i a l , academic, and cumculum development records from university admmstm
of our interviews we leamed about the present location of the student identified by the subject,


     4
       Three months later, during our interviews, we asked the subject if he had complied with
the institution's sanctions and recommendation. He said that he had discaxded all the
confidential information he had retained, but he had not yet apologized to the PIS.
so that we were able to gather information from the student that was previously was unavailable
to us. We spoke with the University's investigating off~cialand also spoke with relevant NSP
program officers about the panel meeting attended by the subject in which the PIS' proposal was
reviewed.

       Briefly, the subject told us that his proposal had been prepared shortly before the
November 1992 submission deadline and that, after consulting with another faculty member, he
had hired, with his University grant funds, a talented, recently graduated undergraduate student
to write most of the proposal. Without considering its confidential nature, he had provided the
student with a copy of the PIS' proposal that he had &ed         from his NSF panel review. He
admitted that he had violated the integrity of oonfidential peer review. He said that all of the
material from the PIS' proposal that appeared in his proposal was copied by the student without
his knowledge. Although he read and corrected each page of the proposal, he neither noticed
the copying nor did he check to see if his c o d o n s had been incorporated into his proposal.
He said he had not noticed his proposal's references to the Fixm's software or those to the
nonexistent fi-.       The subject descn'bed these events in five affidavits (Tab G: Subject
Affidavits (SA)). A de.tailed presentation of the subject's statements about these issues is given
below, and is followed by a description of information we gathered from other sources. Finally,
we present our conclusions which are based on our evaluation of all the evidence we gathered.

Genesis of the Subject's ProDosal

       During our intervie      subject described his ongoing efforts to create a
                                  nter at the University. He also d e s c n i the new course
        he had devised which is described in his NSF proposal and for which the equipment
funds were quested.

       He said the course was being taught for the frrst time in the Fall of 1994.

        Approximately 3-4 years ago            was approved as a required course for IE
        students as a course without a lab component. Two years later, the course was
        revised to include a laboratory. I teach this course and lab and am developing the
        lab exexises based on available equipment and the p r o p s of the students. A
        formal outline for the laboratory exercises does not exist and has not been
        approved. [SA #I].

         The       Center is designed to hold equipment for research and student instruction. He
 said that "the idea and concept for the development of the cell was not new to this proposal.
 We had been planning the           lab for the past 5 years." He said he had been appointed
 director of the Center a year ago, and explained that he did not have any staff and had difficulty
 fmding the time, because of his academic responsibilities, to work on securing funds to build
 the Center. As long ago as 1990, he, and another faculty member, had received $30,000 to
 purchase "a minor portion of the equipment required for the        lab" and that they had planned
    to seek funds iteratively for the various pieces of equipment to complete the construction of the
          lab. However, the funds had dried up.

           His explanations were similar to those in his response to our inquhy letter. In that letter
    he told us that

           We were planning to add different components to this cell, but due to financial
           crisis in California our equipment budget during last two years was practically
                   .
           zero. . . In 1992 it was clear that we will not be able to complete the cell
           ourself [sic] and decided to apply for the NSF grant.

    In our intewiews he said
           We decided to submit to NSF because there were no institutional funds available
           to purchase equipment for the    lab. [SA #4]

           I had not submitted to NSF for such a grant prior to 1992 because I had
           submitted in the past to a diffexent pmgram at NSF and was not funded [SA #I].

    He also said

            Prior to submitting [this proposal], I had submitted two proposals to NSF on
            which I was named as the sole PI. I was also named as a co-PI on two other
            pmposals [SA #5].

           He told us that after he had received the NSF program announcement he had decided to
.   apply to the NSP program for an equipment grant. He said that

            [tlhe cover of the pmgram announcement stated.that the deadline for proposal
            submission was November 16,1992. Working backwards we wee discussing the
            possibility of submitting a proposal in mid-September and [the student assistant]
            and I began work on the proposal in the first week in October. IRSSthan a week
            before the deadline we gave the disk-          containing the proposal to the
            departmental secretary who reformatted it to meet NSF's outline [SA #4].

     The Student Assistant
            The subject said that he was overloaded and did not
     himself, so "after a conversation with another facuIty member
     the student assistant. It was his plan to supervise the
     to "do 90 % of the work" which h e would "review," (SA #3). He considered the student "one


             Hereinafter "the other faculty member. "
of the better Industrial Engineering students [SA #3]." Although the student "hard] some
difficulty pronouncing some English words, [the subject] thought he was a good writer [SA #4]. "

The subject said

       I hired him because he understood the yVniversity's] Industrial Engineering
       program and he had worked without pay in my lab doing documentation of the
       existing      cell during his senior year. In addition, the year before he
       graduated, he had worked with another student on that student's senior project
       and on the development of additional         demonstration cases [to attract
       commercial users of the       Center]. I had paid him to work on the
       demonstration [SA #3].

        Because of his previous work he "felt [the student assistant] was totally familiar with the
cell design." He paid the student assistant for his work on the proposal "with a few hundred
dollars left over from some of  m]  University reseafch grants."


Writing of the Pro_oosal

        The subject told us he provided the student assistant with infomation and documentation,
including the PIS' proposal, to assist his preparation of the subject's proposal. The subject
thought the PIS' proposal "was a good example of a pmposal and it had good information in it
which was not in the program announcement" (SA #4). The subject said he asked the student
assistant to "complete the equipment list, source the equipment, write the proposal, and research
the background information. "

        When we asked the subject what portions of his proposal he had written, he attributed
all of the text and tables copied from the PIS' proposal to the student. He said

         . . . I wmte    A. The Current Situation including the statistical data on the
        University. I wmte part of the [S]umma~y,but not the material copied from [the
        PIS'] proposal. I wrote experiment 6 on my computer and provided [the student
        assistant] with a print out which he inco~poratedin to the p q s a l . [The student
        assistant] provided me with a shell for Table 4 and I filed in the numbers. I
        wrote section D, Faculty &pertbe.

        m e student assistant] wrote part of the Summary, the Development Plan (section
        B) the description of                                               I spoke with
        [the student assistant] about the course . and he wrote the text. I subsequently
        edited that material. m e student assistant] wrote experiments 1-5. m e student
        assistant] also wrote Table 3, section C which described the Equipment . . and .
        section E, the Dissemination Plan.
       We collaboratively developed the equipment li@and Figure 1 which contains the
           layout [SA #4].

        Thus the subject attributed all of the copied text (although he claims to have edited the
text), the copied table, and the copied shell of a second table to the student assistant.

       When describiig his editing and correcting, the subject said that the proposal was worked
on "in sections."

        . . . m e student assistant] typed an outline of the proposal on the Apple
       [computer] for the descriptive part of the proposal. I instructed him to convert
       to m o r d Plerfect because it was compatible with my computer and I would
       workon it here. [The student assistant] would bring me a page at a time to mark
       up. Eventually, I had read and corrected each page of the proposal. I did not go
       back and ~ m thedproposal to see if my c o d o n s were incorporated [SA #3].

However, when asked why the text for the experiments was a verbatim copy of the material
from the PIS' proposal, he later told us

       I do not recall making changes to the descriptions of experiments 1-5 that [the
       student assistant] wrote [SA #4].

In afEdavit #4, the subject said

        I think the copying o c c d because we were in a rush and I did not pay
        sufficient attention to the contents of the proposal, or where or how the material
        got into it. I was mding it in pieces as [the student assistant] provided them to
       'me and only scanned the whole proposal at the end.



        I read each of the sections [the student assistant] wrote but did not notice the
        material that was copied from [the PIS'] proposal.

He said the student would

        print out his most recent draft and I would provide corrections by crossing out or
        editing text or providing additional text. We did this procedure with the whole
        proposal a number of times. We met approximately 10 times. Usually these
        meeting were between 5- 10 [minutes]. Some, .particularly the configuration
        meetings lasted up to 30 minutes. . . . I estimate that [the student assistant] spent
        approximately 2-3 hours every day for the 4-6 weeks preceding the deadline
        working on the proposals [SA #3].
The subject said

       [cllose to the deadline we were in a tremendous msh. The pace became more
       hectic and we were exchanging materials more frequently. A few days before the
       deadline we gave the text of the proposal to the Department secretary. She put
       the proposal into the NSF format and did general clerical work on the proposal.
           .
       . . She returned the completed proposal to me with the institutional review
       fonn. I quickly skimmed the proposal and signed it [SA #3].

The subject said he then

       took it to the chairman for signature. He looked at it and told me it looked good
       and signed the [university] project information fom. The secretary took it to the
       Dean for signature and was responsible for making sure that this proposal, along
       with two others being submitted to the sameNSF program were submitted to NSP
       by the deadline [SA #4].


R e f m c e s to the F i ' s Software and Ammdix VII

      We asked the subject about the references in three of the experiments described in his
proposal to the Firm's software. The subject said

       I had never seen the Ipirm's] flow-chatting software and do not know its
       capabilities. I must have missed the references to it in experiment 2 during my
       review. If I had I would have scratched it out because it is ridiculous for it to be
       in there. As it stands, experiments 3 and 4 refer back to the use of that software.
       Because I missed the references to the [Pirm's] software in experiment 2 I took
       the refeIences to that software in experiments 3 and 4 to flow-charting to be to
       the general technique not to the Ipirm's] software [SA #4].

       Experiments 4 and 5 of the subject's proposal refer to figures in Appendix VII. Although
the text describing these experiments is identical to that in the PIS' proposal, the subject's
proposal's Appendix VII does not contain any figures and is labeled "VII. Undergraduate
Research. "

       The subject said

       The references to figure 2 in Appendix 7 in experiments 4 and 5 were secretarial
       errors. I expected that the secretary who did the final formatting would check for
       such references and make sure Appendix 7 contained a second figure or remove
       the reference. There never was a figure 2 for this proposal [SA #4].
Thus the subject blamed the student for writing the text in which the references to the figures
occurred, and the secretary for faiLing to notice them and remove them.



        The subject told us (SA #2)' that he "knew that peer review was a confidential process"
and that he "did not think @el would breach confidential peer review by providing the proposal
to a student assistant." When describing his reviewer experience he said that the NSP panel
meeting where he reviewed the PIS' proposal was "at least the second panel meeting that me
had] participated in" and that he "had previously reviewed manuscripts for journals and returned
the manuscripts to the journal editors with my comments."

       He described the panel meeting in which he reviewed the PIS' proposal and said that

       [a]t the beginning of the meeting when the approximately 200 reviewers were
       assembled in the meeting room the program officers discussed contide-ntial[ity]
       and that we were to leave the proposals in the room. We were provided with a
       stack of 20-30 proposals. Each proposal was reviewed by each team member.
       Every 3-4 hours we would meet and discuss the particular proposals we had m d
       and sometime after the discussion each person would record their individual
       comments on the NSF reviewer form. Although I filled out 20-30 reviewer forms
       at the meeting, I never read the back of the form. At the end of the meeting the
       proposals were left on the floor of the mom.

               At some point between moving the proposals back and forth between my
       room and the meeting room two praposals became mixed up in my other
       paperwork. I did not discover that I had these two proposals until I Ietumed to
                     .
        my office161. . . Upon the discovery of these proposals I left them on my
        credenza until I ele eased them to a student assistant. . as reference mate& for
                                                             '.


        my NSF proposal. Although I understood the concept of confidential[iQ] as
        explained by the program officers, I did not think about that when I put the
        proposals on the credenza.

               Because of the rush in preparing my proposal to meet the deadline I did
        not think about the confidential[ity] surrounding [the PIS'] proposal when I
        released it to [the student assistant]. I agree that I violated the integrity of
        confidential peer review when I provided the proposal to the [student assistant].
        [SA #21




        The subject could not remember the title of the other proposal and had destroyed it by
        the t h e of our interview. We examined all of the proposals the subject reviewed and
        could not identify another that had material copied from it into his.
      With regard to his review of the PIS' proposal (Tab C), the subject said

      I evaluated [the PIS'] proposal as presenting good student experiments because
                                        ~




      they were relevant to the equipment and to what the             function is. It
      considered most of the      components and their integration. I thought that the
      proposal presented a good project because it was a new area for the students and
      because it was a selfdefined set of activities.

      However, I was concerned about [the PI'S] background because her PhD was not
      in Engineering. This concerned me because I thought the project was highly
      technical and complex and one needed to know how to assemble and integrate the
      components to properly implement the lab. The experiments in [the PIS']
      proposal described two of the three components that I view as     . The two are
      CADICAM (software) and some materials processing and handling equipment
      (hardware). I believe that the third necessary component should be Materials
      Requirements Planning system (management). I included this third component in
      my proposal [experiment 61. [SA #2]

INFORMATION GATBERHD PROM OTaaR SOURCES

       We sought to verify the subject's statements with other individuals and &ugh a review
of the relevant University and NSF records. We also located, spoke with, and wrote to the
student assistant.

The Student Assistant

        We contacted the student by telephone and asked him about the mattes related to this
investigation. He subsequently pmvided us with a written ,statement (Tab I). The student told
us that he received a B.S.in industsial.engineering from the University in December 1991. He
then enrolled at the University as a ' candidate in the Master of Science in Business
Admbistmtion (MBA) pmgram. He took two courses, one in Spring 1992 and another that
summer. However he decided to quit school because of the onemus MBA course requirements
and in September 1992 returned home "to look for a job. "

       He said that

       During Fall of 1991 and into Spring 1992,I worked as a research assistant for
       [the subject] on the        proposal. [The subject] asked me to develop a
       feasibility plan for the                                        laboratory and
             laboratory documentation. I worked and wrote on the specifications for the
       hardwares [sic] for the laboratory and space requirements. m e subject] pmvided
       me with information about the @xal] area and [the University]. My main
       responsible [sic] for this job was to compile and type the materials he provided
        into computer frles. I then passed this computer document back to him aud he
        will [sic] further work on these computer files (files were stored in diskette).

        I worked on the proposal on and off for about 10 hours a week and do not recall
        any urgency attached to completing the work. I worked on it whenever I could.
        I was unable to finish my work on the proposal by the end of Spring 1992 and
        gave [the subject] my work-to-date by the end of Spring 1992. I had not seen
        that proposal after Spring 1992.



        . . . I did not work for [the subject] after the Spring of 1992 because I will not
        get pay as I was no longer a student in [the University]. I did not work on any
        proposal done by [the subject] in Fall of 1992. . . . I do not recall the name [of
        the PI]. I do not know detail [sic] about the industrial engineering course
        and it's [sic] was not available when I was a student. I did not write description
        [sic] of laboratory experiment for that course for his proposal. I am total
        unfamjJia~with the term [describing the Firm's software].


The Other Faculty Member

      We asked the other faculty member about his conversations with the subject about the
proposal and the student assistant (Tab H). He said

        I did not discuss nor did I recommend that [the student assistant] assist [the
        subject] with his proposal     . .
                                        . [the subject] did not ask me for any
        recommendations for somebody to assist him with his NSF proposal.

       He also said that he had "general discussions" with the subject about the proposal, but
"it was apparent that [the subject] was writing and preparing the proposal himself"and that this
occurred "during the end of the Pall 1992 semester."'

       The other faculty member said he "did not recall seeing [the student assistant] in the Pall
of 1992" and that the student 'had reburned to      native country] because he had no funds left
to take courses at [the University]. " The faculty member said, "[the student assistant] worked


    '    The department chairman and the departmental secretary told us that the proposal was
         prepared in a rush in Fall 1992. The chairman said he had given the program
         announcement to the subject. The secretary recalled retyping the proposal and giving it
         to the subject to correct, and repeating this process "a few times." The department
         chairman recalled that the subject gave the secretary a diskette and that he checked with
         the secretary several times on the status of his proposal.
for me on several projects. One project was documentation of the         cell. This project was
completed prior to [the student assistant's] graduation. The last time me] worked for me was
during the summer of 1992." In addition to the          cell documentation, the student assisted
the other faculty member on mini-proposals submitted to the University and on at least one
proposal to a potential industrial sponsor. The subject told us that the student had previously
worked for him on         cell documentation and demonstration cases for industry.

        Statements from both the other faculty member and the subject confirm the student's
statements that he had worked previously for both of them on
               projects. When we asked the other faculty member about the student's reference
to a      proposal he said it was to their general work on the development of a      laboratory.
He said that one of the layouts the student had worked on subsequently appeared in the NSF
proposal, but that it had not been developed with the NSP.proposal in mind. He said that the
student had not written text for the proposal; that had occurred after he left. From the dates
provided by the student, the proposal he described working on in his statement was a proposal
other than the 1992 NSP proposal that is the focus of this case. According to the subject, the
other faculty member, the department chairman, and the department sec-,        the 1992proposal
was not conceived of, or worked on, until Fall 1992 after the student had returned to his native
country.

The University's Records

        The subject told us that the student assistant had been paid for his work on the 1992
proposal by the Univemity from the subject's University grant funds. The University's time
sheet records for late 1991 and 1992 show that the student was paid for work perfomed for the
subject, the other faculty member, and the University's computer services department. They
contimed the student's statement that he worked for the other faculty member in "the Summer
of 1992 and into the [sic] September of 1992. . . ." They also confirm his statement that he
worked for the subject in Fall 1991 and in Spring 1992. The last time sheet filled out by the
student was for work performed in early August 1992 for the computer services department and
the other faculty member. The last time the student submitted a time sheet for work performed
for the subject was in May 1992. The= were no records of the student working for anyone at
the University in October or November 1992. The absence of time sheet records for payments
from the subject's research accounts for the student in Pall 1992 supports the student's
statements that he did not work for the subject when the subject claims the student was paid for
working on the 1992 proposal.

        The University's academic records confirm that the student received a B.S. in industrial
engineering in December 1991 and that he subsequently enrolled in the University's MBA
program in January 1992 and took two programming courses. He was not registered for classes
in Fall 1992 and therefore, according to University policy, could not have worked for the subject
because he was no longer a student.
       The University's curriculum change records show that        was approved as a required
course for engineering majors  in January 1991  on the basis of a curriculum course proposal
submitted in September 1990. The course was revised to include a laboratory component in
October 1992.

The Investigating Officer

         We ask the investigating official if he had questioned the subject about the proposal's
refe~encesto the Firm's software and, if so, what the subject had said. In an October 1994
letter, the official told us that the subject

       stated that this type of software was generally available in the commuuity and
       [that] he in fact referenced a passing fadiarity with its function and use.

The subject had told us that he had "never seen" the software and "d[i]d not h o w its
capabilities."



Ensuring the ConfiddhIity of Peer Review

        We learned h m the NSF program officer that a general panel meeting of all reviewers
is held before the reviewers break up into sub-groups to review proposals. At this general
meeting, xedled by the subject, the program officers review panel procedures, conflict-of-
interest matters, and confidentiality of pmposals and peer reviews. From typed instructions that
are displayed on an overhead projector during the meeting, reviewers are explicitly told that

        The Foundation receives proposals in confidence and is responsible for protecting
        the confidentiality of their contents. For this reason, please do not copy, quote,
        or otherwise use material from these proposals.

  These same instxuctions appea.red on the back of the review form completed by the subject.
  During the general meeting reviewers are instructed to leave the reviewed proposals in a pile on
- the floor of their sub-panel meeting mom--they are not to take them home with them when they
  leave. The accumulated proposals are collected and disposed of by Foundation staff. According
  to a program officer this pile is rather immense and would be hard for a reviewer to miss. A
  program officer is stationed in each subpanel review room to answer any questions about the
  review process or the handling of confidential proposals that are raised by panelists.

 The Subject's History of Reviewing Plloposals For NSP

        We examined the subject's NSF Reviewer History. We found that the subject had been
 invited by this NSF program to participate in three panel reviews. He participated in two of
 these reviews, one in 1988 and another in 1992. He submitted reviews on a total of 35
proposals, 12 in 1988, and 23 in 1992. The subject had told us that he had retained two of the
twenty-three proposals he had reviewed at the February 1992 panel meeting, but he had since
discarded them. Other than the PIS' proposal, he could not recall which proposal he had kept.
We examined all twenty-three proposals and found none, other than the PIS' proposal, that was
obviously a source document for text in his proposal.

The Pmgram's Requbments for Submitted Proposals

       The program announcement and guidelines bmhure (NSF92-86) to which the subject's
proposal responded provides submitting PIS with guidance and advice about how to write a
successful proposal. Unlike programs that support basic research, this program

       . . . aims to improve the quality of undergraduate instruction by supporting the
       acquisition of instruments for laboratory courses in science, .mithematics, or
       engineering.



       @Jt seeks projects that will produce models for the use of iristructional
       instmmentation. Innovative methods for using laboratory activities to improve
       student understanding of basic principles are especially sought. Dissemination of
       project results via pmfessional or education journals, presentations at scientific
                   .
       meetings . . is expected.

The program announcement states that among the five parts a proposal should contain are the
Project Summary Form and a Narrative that contains the project's description and justification.
Within the narrative, PIS axe instxucted to include sections on the Current Situation at the
University, a Development Plan, and a description of the requested equipment. The frrst two
sections contain the substantive description of the funding request and its justification.

      Both the PIS' and the subject's proposals followed the specified outline closely. In both
proposals the material in question was found in the "Summary of Proposed Work," the
"Development Plan," and the equipment q u e s t .

       The Summary of hoposed Work is restricted to 22 lines that "tell briefly the aim of the
project, the major instruments which will be purchased, in what applications they will be used,
and why the project is significant. " The subject's Summary was 18 Lines long-1 1 of those Lines
were identical to text in the PIS' proposal. These 11lines were found in three blocks of text that
were broken apart by text (totaling 7 Lines) the subject stated that he wrote.

        The narrative "presents most of the information that determines whether or not a grant
 will be awarded. . . . The narrative must focus on one coherent project that would improve
 undergraduate instruction." One of the six specific sections to be included in the narrative is
 "The Development Plan. " This section
      should contain a detailed description of the specific developments intended.
      Specific new experiments, students projects, or course work that would be
      conducted with the requested equipment must be presented in terms of the
      principles or phenomena to be taught how they will be taught, what experiments
      or material will be replaced, and how the overall plan is an improvement. The
      scientific and pedagogical aspects of the proposed project will be weighed to
      assess the relative impact on science, mathematics, or engineering education
      promised by the project.

       In another section of the program announcement entitled "Advice to Proposal Writers,"
PIS are told

       focussing f b t on the curriculum plan helps ensure that the instrumentation will
       take its pmper place as the means for carrying ow a significant cumcular
       improvement. mphasiis in the original.]

They are told to "be explicit about how the equipment wiU be used to make the cumcular
improvement [and that] =viewers want details of experiments and applications, both to show that
                                                                                      .
planning has been done and to help them understand why the particular application . .is better
                      .
than others they see. . . The reviewers . . . want to know the proposer's explicit plan for
applying that capability in a way that will improve the undergraduate's understanding of
scientific, mathematical, engineering, or technical concepts. "

       It is clear from the discussion in the program announcement that the Development Plan
and the experiments described in it are critical in the evaluation of a proposal. Virtually all of
the text describing the subject's new course was copied from the PIS' proposal. Of the six
experiments described in the subject's proposal, experiments #1-5 were copied verbatim from
the PIS' proposal. Only experiment 6, the Manufacturing Resource Planning (MRP) exercise,
was unique to the subjedt's proposal. Finally, two lines of a half page description of the
equipment request appear to have been copied from the PIs' proposal.

        Thus, virtually all of the proposal material that describes the pmposed work (the
intellectual content of the proposal) was copied from the PIS' praposal into the subject's. In his
statements the subject asserts that his student assistant copied all of this material without the
subject's knowledge.

The Subject's History of Submitting Proposals to NSF

         The subject told us that he had submitted four proposals to NSF and that he had never
submitted to the IU program prior to his 1992 proposal. However, we found that the subject
is listed as a PI or co-PIon six separate proposal submissions to NSF, including the proposal
in this case. Only the proposal involved in this case received funding. One of the other
proposals8 was submitted in November 1991 to the same IU program as the subsequently
submitted proposal containing the copying. We Ieazned that the subject had actively piuticipated
in writing sections of this proposal including the Current Situation and the description of the
engineering curriculum.

      The submission, review, and funding decision dates for the PIS' proposal, the subject's
1991proposal, and the subject's 1992 proposal that contained the material copied from the PIS'
proposal am presented below.
L




     proposal               Signed at             Reviewed by NSF           Declined/Punded
                            Institution                                        @)/O
     PIS' Pmposal           11/15/91              02/01/92                            e>

     1992 Proposal          11/12/92 .            02/13/93


       NSF's declination letter for the subject's 1991proposal was dated August 26,1992. We
found that the subject learned of his 1991 proposal's declination and the substance of the
reviewed comments while he was working on his 1992 proposap. When we compared the
subject's 1991 and 1992 prcrposals we found that a page and a half of the two page description
of the "Current Situation" in the subject's 1992 proposal was a verbatim copy of text found in
the previously submitted 1991 proposal (see bracketed sections labeled "1991" in the proposal
in Tab B).




     a This proposal is entitled,                                         It named the subject and
another faculty member as co-PIS. The-p~was &                            , then the Director of the
                                     Institute at the institution, (a position to which the subject
was appointed in August 1993). The declined 1991 proposal n q k e d $81,221.95 to support
the University's.                                           Institute's establishment of a Rapid
Prototyping I&oratory. One of two additional faculty members mentioned in the proposal as
using the equipment purchased if the proposal was funded was the other faculty member
identified by the subject during our intepiews.
           University grants and contracts officials said that it is .their usual practice to discuss
    reviewer comments with PIS in anticipation of a revised submission. One official told us that
    he had discussed the substance of the 1991proposal reviewers' comments with the subject just
    before or as the subject prepared his 1992 submission. Other institution officials told us that the
    subject was aware of the contents of those reviews.
       Of the eight panelists that reviewed his 1991proposal, six commented on the absence of
an educational plan utilizing the equipment and some worried that the equipment would be used
primarily by industrial users of the      Center.

The reviewers said

Reviewer 1: m e equipment is] to be used in rapid prototyping in an undergraduate program
            which is not yet fully developed. . . . The faculty . . . do not yet have an
            educational plan designed to use the equipment . . . . The proposal does not
            a d h s the educational cost/benefit element of this equipment. The industrial
            interest is a plus to this proposal provided industry is does [sic] dominate its use
            malting the funding an NSF subsidy to local industry.

Reviewer 2: Students would benefit but no real plan exists as to how this project would
            improve or add to instruction in technical education at other institutions. Much
            seems to be for the benefit of industry .  . ..
                                                         Where is the plan on how it is to be
            incorporated into the classmm?

Reviewer 3: There is no development plan presented which can justify the high cost of this
            project. A more specific plan to improve education shall [sic] be considered,
                                     .
            although the idea . . is a good concept.

Reviewer 4: Overall, the proposal is not particularly strong because of the lack of a well
            defined development plan.

Reviewer 6: m h e concept of purchasing [the specified equipment] for the propose of
            undergraduate education seems an attractive one. However, no implementation
            program was presented. Merely courses to be impacted are listed. The= is a
            danger that undergraduate education will. not benefit from the equipment a[s]
            much as industrial partners. . . . Plecause of [the] poor implementation plan [it]
            is difficult to asses[s] the impact of the project.

Reviewer 7: Addressing the following issues would ,havemade-this an excellent project:
                         -       the need for the project
                         ..      focus[s]ed curricular and instructional plan

In summarizing his decision not to fund this proposal, the program officer said

        m h e development plan does not justify the educational aspects of the project;
        the educational improvement and benefits are not fully outlined. The departments
        . . . would be the beneficiaries, but the use of the equipment by the students is
        not explicit and the fear is that industrial use would be predominant if not
        guaranteed otherwise.
       . . . I recommend that support for the project be declined, and that a resubmittal
      be encouraged.

       The subject's statements to us are contradicted by this evidence. Though he told us he
had never previously submitted a proposal to the ILI pmgram, we leamed he assisted in the
preparation of the 1991 proposal submitted to the same NSF program as the 1992 proposal
containing the copied text and tables. He used portions of the 1991 proposal in his 1992
submission. The copied material from the PIS' proposal found in the 1992 submission was
responsive to the criticisms made by the reviewers of his 1991 proposal's weak educational
development plan.

OIG'S EVALUATION OF THE BVIDENCa GATEIERED FROM THE SlJBIECT AND
OTHBR SOURCESAND OIG'S CONCLUSIONREGARDING MISCONDUCTIN SCIENCE4

       NSF defines misconduct in *levant part as "(1) Fabrication, falsification, plagiarism, or
other serious deviation from accepted practices in proposing, carrying out, or repoxling results
from activities funded by NSP   .. . " (45 C.F.R. $689.1(a)(l)). For NSF to make a finding of
misconduct in science, a preponderance of the evidence must show: I) that the subject
committed a bad act associated with NSP activities and 2) that the bad act was committed with
a culpable state of mind (such as willful,knowing, or grossly negligent) (45 C.F.R. 689.2(d)).

The Act- Plagkrkm

The Student's Role in Writing the h p s a l
       The evidence we uncovered in this case revealed a number of inconsistencies in the
subject's statements that led to our conclusion that the subject misrepresented his role in writing
the proposal and to our conclusion that he alone was responsible for its creation.

        First,the subject said the other faculty member had recommended that he hite the student
assistant to work on the proposal. However, the other faculty member said that he had not made
a recommendation to the subject. It was his recollection that the subject worked on the proposal
alone. We could not find anyone to corroborate the subject's assertion that anyone assisted him
in writing the proposal.                                   >


       Second, he said he paid the student a "few hundred dollars" from his University grant
funds. From this, we estimated that the student assistant would have worked a minimum of 40
and a maximum of 90 hours on the proposal. From the other faculty member, the department
chairman, the departmental secretary, and the subject we leamed that work on the proposal
began late in Fall 1992. From the subject's statements, work on the proposal began no earlier
than October 1, 1992. The University could fmd no fmancial records to support the subject's
statement that the student had been paid from his grant funds in Fall 1992.
        Third, the subject told the investigating off~cialthat when they were working on the
proposal the student was "still taking classes in the Business School." The academic records
confiied the student's statements that he graduated in December 1991 and then, for a brief
period of time, was enrolled in the University's MBA program. However, the student was not,
as the subject claimed, registered for Fall 1992 classes. The student decided not to continue in
the MBA program and returned to his native country in September 1992, before the subject
claimed work began on the proposal. Further, we learned that because the student was not
enrolled at the University in Fall 1992, he could not have received student support funds from
the subject's University grant.

       Fourth, after speaking with the student and reviewing the statement he wrote and
submitted to us, we concluded that the subject's characterization of the student as a "a good
writer," was incorrect. Any material written by the student would require extensive editing
because it was written so poorly (see Tab I).

        Fifth,he said he did not write the pmposal description for the new industrial engineering
course he had designed and that a student who had never taken 'the course wrote that description.
The course with the laboratory component was offered for the first time in September 1994, two
and a half years after the student had graduated. According to the subject he was teaching this
course and developing the laboratory materials as the class progressed. A "formal outline for
the laboratory exe~isesd,[i]d not exist." It is not believable that an undergraduate student could
have produced the extensive course materials found in the proposal and that such material, if
produced without a formal outline based on unrealistic expectations by the subject, would not
have received extensive scrutiny that would have uncovered the copying and the references to
the software and the Appendix. Further, in his =view of the PIS' proposal the subject had
criticized the lead PI because her "Ph.D was not in Engineering. This concerned me because
I thought the project was highly technicaland compIex and one needed to know how to assemble
and integrate the components to ptoperly implement the lab." Despite this, we were asked to
believe he entrusted the writing of this portion of the proposal to a B.S. graduate who had never
taken the course. The subject's claim is not believable.

       Sixth,the subject claimed that the student copied the table depicting the utiIization of the
equipment in the new course. This table broke out student course work and laboratory activities
for each day of the week. Again, it is not believable that an inexperienced student could have
created such a table without the participation of the faculty member who designed the course and
who would be responsible for teaching it.

        Seventh, the subject claimed the student copied the shell for a second table describing the
specific usage of the      Laboratory. The shell broke out the usage of the equipment over four
different activities (     Robotics, Manufacturing Process, and Automation) and expressed this
usage in terms such as numbers of students, and hours/week, and the amount of time allocated
to special projects. It is unbelievable that the student could have created this shell without the
guidance and oversight of the faculty member experienced in the management of academic
courses relying on shared laboratory equipment. Again, the subject's claim is not credible.
        None of the evidence we gathered supported the subject's statements that the student
assistant worked on a pmposal for the subject in Fall 1992. The information we gathered from
four independent sources (the University's financial and academic records, the student, and the
other faculty member) supports our conclusion that the student could not have worked for the
subject in October 1992 because he was not emlled at the university and he was living and
working in his native country at that time. The preponderance of the evidence supports the
falsity of the subject's claims that he paid a menfly graduated student to write the proposal, and
the student, without his permission, copied text, one table, and the shell for a second table from
the PIS' proposal into the subject's 1992 submission.

The Subiect's Role in Writing the ProDosal

       The subject's statement that he only m t e those sections of the proposal that did ,not
contain copied material, and only those sentences within sections containing copied material that
were not copied, and that he never noticed the remaining material had been copied is not
credible.

        He claimed to have written only 7 of the 18 lines in the Summary of Proposed Work;
7 lines that were interspersed among three blocks of copied text totaling 11 lines. The 7 lines
he claims to have written were general information sentences while the 11 he claims not to have
written substantively describe the pmject. It is not believable that the subject, who had spent
a great deal of time and effort seeking funding for the     lab would not have put considerable
effort into the substantive portion of the Summary.

       Despite the fact the subject claimed to have "read and corrected" each page of the
proposal, he said he did not notice experiment 2's explicit reference to the Firm's software and
because of that he thought experiment 3's and 4's. references to this softwaxe were to "the
general technique." He claimed a set- error led to the final proposal's citation to
nonexistent figures in an Appendix devoted to a unrelated topic. This does not explain how he
missed the refexences to these figures during his review. It is again unbelievable that an
individual who had expended over three years soliciting funds to purchase equipment for
Laboratory, and whose "equipment budget during the last two years was pmctically zero" . . .
"due to the financial crisis in California" would not have carefully checked and rechecked the
proposal for accuracy and to ensure that it described his project as clearly and persuasively as
possible.

         Given:the subject's knowledge of the NSF funding process, his experience reviewing for
 this NSP program, his experience as a proposal writer, the declination of the 1991 proposal and
 the content of its reviews, the clear explanations in the NSF program announcement about the
 importance of the pmject description (the section of the subject's proposal that contains the
 software references) to the reviewers and program managers who are making funding decisions,
 the iterative page-by-page review process he described, and his need to secure outside funding
 because of the Center's tight financial situation, we do not find it credible that he was not
intimately familiar with the content of the proposal, that he did not review the proposal
carefully, or .that he missed references to the software in the proposal.

        He said he "did write some sections of the proposal" and listed "A. The Cumnt Situation
including the statistical data on the University." We later learned that although the statistics in
this section had been updated, much of the text had been copied verbatim from the 1991
proposal naming him as a co-PI which was submitted to the ILI NSF p r o m in 1991. Rather
than honestly explain that he had copied the material from the previous year's submission he
falsely claimed to have written it for the 1992 proposal and that he had never submitted a
proposal to the ILI program before 1992. The subject may have written the material for the
1991 praposal; however, his false claims impugn his veracity.

   Thexefore, we conclude that the subject was not truthful with us when.we asked about his
contributions to the development of the proposal. We conclude that a preponderance of the
evidence gathered from a variety of unrelated s o m shows that he extensively copied text and
tables from the PIS' pmposal into his own subsequent submission and, because of the press of
time, he failed to ca~fullyedit this material to make it consistent with the figure he chose to
submit or the software available to him.

Stak of Mind - P)arriarism

       The subject described his long-term efforts and frustrations in trying to secure the funding
to purchase the necessary equipment to support           Center activities. This frustration was
apparently compounded by economic downturns that made securing funding fmm industrial
partners even more difficult. He decided to submit a proposal to NSF within 4-6 weeks of the
deadline, and one month after learning of NSF's declination of a proposal he had pending with
the same NSP program. He knew that his 1991 proposal had received positive technical
evaluations but had been criticized for the absence of an educational development plan. On the
basis of his prior peer review of the PIS' proposal he knew that its educational development plan
contained a l l but one of the elements he considered important in teaching           Therefore he
used the PIS' proposal as information mdily available to him in the creation of his own
proposal. He interspersed the material he copied fmm the PIS' proposal with his own material
to develop a proposal that he knew would be responsive to the program's guidelines.

        Copying material from a source document without attribution is inherently a knowing
activity. We believe that a preponderance of the evidence supports the conclusion that the
subject willfully copied text and tables from the PIS' proposal into his own NSF submission in
order to i n c m e the chances that his proposal would receive funding. He achieved his objective
when NSF funded his proposal.
The Act - Violstine the Integrity of the Confidential Peer Review Pmces

        The subject told us that he violated the confidentiality of peer review. Therefore, we
conclude that a preponderance of the evidence supports the fmding that the subject violated the
integrity of the confidential peer review process when he copied from an NSF proposal he had
received for such review.

State of Mind   - Viohthw the Integrity of the Codide-atial Peer Review Pmcess
        The subject was an experienced NSF reviewer. He had participated in two different
panel reviews for the NSF program to which he later submitted his proposal, had written reviews
on 35 proposals, and had Wcipated in the general panel meeting where the program officers
discuss the confidential nature of proposals. He mailed the general panel meeting and "being
'probably' advised that the proposals he was to d e w were confidential and should not be
w e d ."

       Further, he is not an inexperienced PI. He has submitted six different proposals to NSF.
The proposal containing the copied text was the second proposal he had submitted to this NSF
program. Submitting proposals to and reviewing for this NSP program were both relatively
recent experiences in which the confidential peer review process is an essential element.

        The concept of confidential review is a tradition within the general scientific community,
and, according to the subject's own department chairman, within the subject's scientific
community. NSF's explicit statement of the confidential nature of proposals has appeared on
review forms since at least 1983. We could find no evidence to support the subject's assertion
that "it was a 'common practice' for participants in the NSF peer review process to retain such
proposals" or to share these confidential documents with students. We believe that someone
with his level of experience clearly understood the confidential nature of peer review. We find
his statements even more incredible because, on program officer insbructions, the panelists
discatd reviewed proposals on the floor in a w e pile. Such an unusual activity emphasizes
both the program officers' oral and written instxuctions not to retain proposals and the
confidential nature of proposals.

        We conclude that the evidence shows that the subject knew from experience and by direct
instruction that proposals were confidential. We do not find his statement that he had not
thought about confidentiality prior to using the PIS' proposal to be credible. We conclude that
thesubject read the PIS' proposal and that he kept it when he left the NSF panel meeting. We
cannot determine whether this was an honest mistake or whether he intended, at the time, to use
the material in a subsequent proposal submission. We find that the prepondemce of the
evidence supports the conclusion that he violated the integrity of NSP's confidentialpeer review
process when he kept the proposal and then copied the material from it into his own.
        We conclude that the subject committed misconduct in science when he violated the
confidentiality of peer review and plagkukd text and tables from an NSF proposal he had
received for peer review into his own proposal submission to NSP. We conclude his actions
were serious deviations from accepted practices in the scientific community. The seriousness
of the subject's actions are aggravated by the numerous false claims he made when asked for
explanations. He falsely claimed another faculty member had recommended a student assistant.
He falsely claimed a student assistant copied all of the plagiarized material into his proposal, and
he fabricated a story about their working relationship, how he paid the student, and why he
failed to detect the copied material. He blamed a secretary for the emneous references to
nonexistent figures. Finally, he falsely claimed he had not submitted a proposal to the same
NSF program earlier.

                       OIG'S RJTOMMENDED DISPOSITION                           .


        Under 8 689.2(b) of NSF's misconduct in science and engineering regulation, when
deciding what actions am appropriate when misconduct is found, NSF officials should consider
the seriousness of the misconduct, the intent with which the subject acted, any evidence of a
pattern, and finally, its relevance to other funding requests or awards involving the Univenity
or the individual. We concluded that the subject's extensive plagiarism and violation of the
confidentiality of peer review were serious deviations from accepted practices and, hence, were
misconduct in science. We concluded that the subject knowingly violated the confidentiality of
peer review and willfully plagiarized text and figures from the PIS' proposal into his own.
Although we are not aware of any other NSP proposals, other than the PIS', that the subject
received for peer review and from which he p l a g k h d , the plagiarism in the proposal involved
in this matter was extensive. The plagiarized text described the proposed work and was essential
to the proposal's positive reviews and the program's funding decision. The plagkked material
was directly responsive to reviewers' criticisms of the declined proposal he had submitted to the
same NSF pmgmm the previous year. The seriousness of his actions is aggravated because he
is a senior faculty member who is an experienced NSF reviewer and PI, and because when asked
about these allegations he made numerous false claims about how the plaghism had occurred
and about his submission history to NSF. He blamed another individual, the student, rather than        .
accepting responsibility for his own actions.


        The subject's proposal containing the pla@arized material was awarded             The
University has not spent any of these funds. When NSP funded the subject's proposal as an
original, innovative proposal, it was actually funding the proposed work a second time. This
work had already been proposed by the PIS and was the basis for an award from NSF a year
earlier. Such funds could have been put to better use if they had been used to fund a proposal
that truly contained new and innovative ideas. NSF should recover these funds.
       We recommend that NSF's Deputy Director should take the following actions to protect
the government's interestslO:

(1)        NSF should send a letter of reprimand to the subject stating that it has concluded
           that he committed serious deviations from accepted practices and thus misconduct
           in science when he violated the integrity of peer review and he p l a g k h d text
           and tables fmm a proposal received for confidential review into his own
           subsequent NSF submission.'l

(2)        NSF should debar the subject from receiving government grants or awards for a
           period of 3 years from the date of the final disposition of this case.12

(3)        NSF should prohibit the subject from participating as an NSF peer or mail
           reviewer, or as an advisor or consultant to NSF for a period of 5 years from the
           date of the final disposition of this case.13

(4)        NSF should recover the funds awarded to the University for this proposal.14




    lo We briefed the U. S. Attorney's        on this matter and it declined prosecution because
them will be no bss to the Government if the University returns the awarded funds and because
administrative action (debarment) against the subject was being recommended to NSF.
      "     This is a Group I action, see 5 689.2(a)(l)(i).

      l2   This is a Group III action, see   4 689.2(a)(3)(ii).
      l3   This is a Group III action, see 5 689.2(a)(3)(iii).
      l4   This is a Group III action, see 8 689.2(a)(3)(i).

                                                     31
